C@OQCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 L é g a | B pre fs contact@cocklelegalbriefs.com
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
GORDON SCOTT STROH,
Petitioner,

v.
SATURNA CAPITAL CORPORATION,
NICHOLAS KAISER AND JANE CARTEN,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Ist day of July, 2019, send out from
Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
STEPHEN M. KOHN
KOHN, KOHN & COLAPINTO, LLP
3233 P Street, NW
Washington, DC 20007-2756
(202) 342-6980
sk@kke.com

Attorney for Petitioner
Gordon Scott Stroh

Subscribed and sworn to before me this Ist day of July, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
General Notary 5
amet, » EC Clute Qrdeawh, Cle

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38216
Jeffrey B. Coopersmith
Davis Wright Tremaine LLP
920 Fifth Avenue

Suite 3300

Seattle, WA 98104
206.757.8020
jeffcoopersmith@dwt.com
